                         Closeout Memorandum for 3.$1110039
Wewere informed of a PI'S' concerns about the processing, declination, and reconsideration of
his proposal.2 Specifically, the PI was concerned about:

   1.   Potential conflict of interests in the review of his proposal,
   2.   The quality of reviewers' comments,
   3.   The comments in the panel summary,
   4.   The responsiveness of the program officer to his phone calls, and
   5.   The adequacy of the reconsideration his proposal received.

OIG reviewed the proposal and reconsiderationjacket and associated materials and interviewed
selected program staff. With regard to each of the PI'S concerns, OIG learned:

The PI was concerned that a competitor,3 who is currently a program officer in the division that
considered the PI'S proposal, participated in the review and adversely influenced the program's
decision to decline it. The PI explained that he believed that the competitor's reviews of a
proposal to another agency and a manuscript were instrumental in their respective decline or
rejection. OIG found no documentary evidence in the jacket that the competitor participated in
NSF's review or processing of the PI'S NSF proposal. Further, the competitor explained to OIG
that if he had been asked to participate, he would have refused because of the PI'S reaction to his
function as the reviewer of the other agency proposal.

The PI expressed concern about the content and technical accuracy of certain reviews. He also
suspected that the competitor authored or influenced the content of one of the more negative
 review^.^ OIG could find no evidence to support this latter allegation. IVSF reviewers are not
restricted on how or what they comment on regarding a proposal. It is not uncommon for a set of
reviewers to disagree on the merit of a proposed project. Program Officers (POs) are obligated
to ensure that their evaluations are balanced and objective and not unfairly tainted by irrelevant
review remarks and there was no evidence the review process had been subverted or was unfairly
tainted.

The PI objected to inaccuracies in the Panel Summary. OIG found that the Panel Summary did
contain some technical inaccuracies but the PO' had amended the Summary with PO Comments
to provide necessary balance.

The PI said he tried to call the PO responsible for his proposal multiple times while the proposal
was under review and afier it had been reviewed. He wanted to alert the PO to his concerns
about the competitor. The PI claims the PO never returned his calls. OIG learned that the




                                        Page 1 of 2                                A01-39             1
4
    #    --   F




                                 Closeout Memorandum for -&01110039

        reconsideration process identified this issue and the PO was counseled about responsiveness.
        OIG considers employee behavior issues to be management's responsibility. Management
        handled the PI'S concerns appropriately.

        The PI said the reconsideration was incomplete because the letter he received from the Assistant
        ~ i r e c t o (AD)
                      r ~ explaining the rationale for not reversing the decline had not responded to his
        concerns regarding NSF staff. The PI raised his concerns with the AD, who responded in a
        second letter to the PI clearly explaining that the competitor had not participated in any form in
        NSF's review and decision process. The AD also apologized for the PO'S behavior and
        explained that the PO had been counseled.

        OIG found no evidence of a conflict of interests or that the reconsideration process
        inappropriately evaluated the issues raised by the PI.

        This inquiry is closed and no fbrther action will be taken in this matter.


        cc: Investigations, IG




                                                Page 2 of 2
